1200 New Hampshire Ave. NW, Suite 700
BECKET ee
202-955-0095 / YW @BecketLaw

Religious Liberty for All wow beckstlaw ong

October 8, 2019
By hand delivery and eFile

Honorable Scott S. Harris

Clerk of Court

Supreme Court of the United States
1 First Street NE

Washington, DC 20543-0001

Re: Little Sisters of the Poor Saints Peter and Paul Home v. Pennsylvania, et al.,
No. 19-431

Dear Mr. Harris:
This letter notifies the Court that Petitioner has granted blanket consent to
the filing of briefs amicus curiae in support of petitioner, respondent, or neither party

at the certiorari stage in the above-captioned case.

Sincerely,

a Pee

Mark L. Rienzi
mrienzi@becketlaw.org
Counsel of Record for Petitioner

cc: Counsel of Record
